HHS/OIG, Audit -"Audit of Medicaid Payments for Deceased Beneficiaries in Florida,"(A-04-03-07029)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicaid
Payments for Deceased Beneficiaries in Florida," (A-04-03-07029)
July 28, 2005
Complete
Text of Report is available in PDF format (642 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to identify any Medicaid overpayments resulting from payments to providers for medical
services claimed to have been rendered after the month in which a beneficiary died.  We found
that Florida made Medicaid payments for medical services claimed to have been rendered after the month
of a beneficiarys death.  Specifically, for a sample of 200 Medicaid payments made on behalf
of eligible beneficiaries who died during our audit period, the State made 48 payments after the beneficiaries deaths
that amounted to $15,765 ($8,811 Federal share).  We recommended that the State:  (1) review
our sampling universe to identify and recover, where appropriate, overpayments estimated at $11.6 million
($6.5 million Federal share) made on behalf of deceased beneficiaries and (2) improve its procedures
for identifying deceased beneficiaries to prevent overpayments in the future.  In response to
our draft report, the State Medicaid agency agreed to implement our recommendations.